                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION


Office of Inspector General—Office of Audit




                                              PERFORMANCE AUDIT OF JOB CORPS
                                              CENTER OPERATING COSTS
                                              For the period October 1, 2003 – March 31, 2004




                                              This report was prepared by M.D. Oppenheim & Company, P.C., under
                                              contract to the U.S. Department of Labor, Office of Inspector General,
                                              and by acceptance, it becomes a report of the Office of Inspector
                                              General.




                                                                                Assistant Inspector General for Audit




                                                                     Date Issued: March 31, 2005
                                                                     Final Report Number: 03-05-004-03-370
Department of Labor                                    MARCH 2005
Office of Inspector General
Office of Audit                                        Performance Audit of
                                                       Job Corps Center Operating Costs

                                                       WHAT OIG FOUND
BRIEFLY…                                               The audit found that, overall, Job Corps contractors
                                                       are complying with laws, regulations, and Job Corps
Highlights of Report Number: 03-05-004-03-370 to       policies and procedures related to center operating
the Assistant Secretary, Employment and Training.      costs. However, the auditors did identify three areas
March 31, 2005.                                        of noncompliance that related to specific contractor
                                                       operations (1) inadequate accounting systems, (2)
WHY READ THE REPORT                                    discrepancies between the ETA-2110 and Public
                                                       Voucher, and (3) compensation in excess of
There are currently 90 contractor-operated Job         statutory limitations. The auditors also found one
Corps centers run by 28 for-profit corporations or     area of noncompliance that was a cross-cutting
nonprofit organizations. Center operating costs are    issue found at several centers - journal entries not
reported to the Office of Job Corps monthly on Form    authorized, not adequately supported, or incorrectly
ETA-2110, Job Corps Center Financial Report, and       recorded.
include direct center expenses such as center staff
salaries, student food, student clothing, utilities,   WHAT OIG RECOMMENDED
medical, and dental expenses, as well as indirect
costs such as contractor fees and general and          We recommended that the Assistant Secretary for
administrative expenses.                               Employment and Training direct Job Corps to:

WHY OIG DID THE AUDIT                                  Require the contractor for the North Texas JCC (1)
                                                       refund $786,977 because the contractor did not
                                                       substantiate that these costs were reasonable and
The Office of Inspector General contracted with M.D.
                                                       allowable; (2) use a current cost method to prepare
Oppenheim & Company to conduct a performance
                                                       the ETA-2110 financial report; and (3) take the
audit of Job Corps Center (JCC) operating costs at
                                                       necessary steps to ensure there is support for the
12 contractor-operated centers for the period
                                                       amounts reported on the ETA-2110.
October 1, 2003 through March 31, 2004. The audit
was performed in conjunction with the audit of the
                                                       Ensure that final financial reports and billings by the
U.S. Department of Labor’s Consolidated Financial
                                                       former contractor for the Homestead JCC are
Statements for Fiscal Year 2004.
                                                       accurate and complete, that Homestead JCC staff
                                                       receive training on how to accurately prepare the
The audit was conducted to answer the following
                                                       monthly ETA-2110, and that controls are
question:
                                                       implemented to ensure all future submissions are
                                                       properly reconciled to the Public Voucher and the
Are Job Corps contractors complying with laws,
                                                       books of account.
regulations, and Job Corps policies and procedures
related to center operating costs?
                                                       Require that the contractor for the Treasure Island
                                                       JCC, refund $38,235 paid in excess of Executive
READ THE FULL REPORT                                   Level II compensation limits.
To view the report, including the scope,               Ensure that each center has written policies and
methodology, and full agency response, go to:          procedures related to the preparation,
http://www.oig.dol.gov/public                          documentation, recording, and approval of all journal
reports/oa/2005/03-05-004-03-370.pdf.                  entries made to the centers’ books of account and
                                                       that corrective actions are taken by the five JCCs to
                                                       address the deficiencies reported.

                                                       The Assistant Secretary for Employment and
                                                       Training agreed with our recommendations.
                                                       Performance Audit of Job Corps Center Operating Costs


Table of Contents

EXECUTIVE SUMMARY .............................................................................................. 3


ASSISTANT INSPECTOR GENERAL’S REPORT ...................................................... 5
  Objective ...................................................................................................................... 6
  Finding 1- Lack of an Adequate Accounting System at the North Texas Job Corps
             Center Resulted in Questioned Costs of $786,977........................................... 6
             Recommendations 1, 2, 3 .......................................................................... 7


  Finding 2- Discrepancies Found In Homestead Job Corps Center’s ETA-2110
            and Public Voucher ................................................................................... 8
            Recommendations 4, 5, 6 ........................................................................... 9

  Finding 3- Compensation in Excess of Statutory Limitations Resulted in Questioned
             Costs of $38,235 at Treasure Island Job Corps Center ................................ 9
             Recommendation 7 ....................................................................................10

  Finding 4- Journal Entries Were Not Authorized, Lacked Adequate Support, or
             Were Incorrectly Recorded at Five Centers ............................................... 10
             Recommendation 8 ....................................................................................12
EXHIBIT
       A. Job Corps Centers Tested ...............................................................................15
APPENDICES

       A:    Background .................................................................................................... 19
       B:    Scope and Methodology ..................................................................................21
       C:    Criteria ............................................................................................................23
       D:    Acronyms and Abbreviations ..........................................................................25
       E:    Agency Response to Draft Report................................................................... 29




Prepared by M.D. Oppenheim & Company, P.C., for the                                                                               1
U.S. Department of Labor—Office of Inspector General
Report Number: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs




                      THIS PAGE INTENTIONALLY LEFT BLANK




2                                        Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs



Executive Summary
M.D. Oppenheim & Company, under contract to the U.S. Department of Labor, Office of
Inspector General, conducted a performance audit of Job Corps Center (JCC) operating
costs at 12 contractor-operated centers for the period October 2003 through March
2004. Center operating costs are reported to the Office of Job Corps monthly on Form
ETA-2110, Job Corps Center Financial Report, and include direct center expenses such
as center staff salaries, student food, student clothing, utilities, medical, and dental
expenses, as well as indirect costs such as contractor fees and general and
administrative expenses. The audit was performed in conjunction with the audit of the
U.S. Department of Labor’s Consolidated Financial Statements for Fiscal Year 2004.

The audit was conducted to answer the following question:

       Are Job Corps contractors complying with laws, regulations, and Job Corps
       policies and procedures for center operating costs?

Results

The audit found that, overall, Job Corps contractors are complying with laws,
regulations, and Job Corps policies and procedures related to center operating costs.
However, the auditors did identify three areas of noncompliance that related to specific
contractor operations and one area of noncompliance that was a cross-cutting issue
found at several centers, as noted in the following findings and recommendations:

   •   inadequate accounting system;

   •   discrepancies between the ETA-2110 and Public Voucher;

   •   compensation in excess of statutory limitations; and

   •   journal entries not approved, not adequately supported, or incorrectly recorded.

Instances of noncompliance such as these can result in overbilling to the government
and an increased possibility of fraud through the manipulation of accounting records.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

1. Require that Cube Corporation, the contractor for the North Texas JCC, refund
   $786,977 because the documentation maintained by the contractor did not
   substantiate that these costs were reasonable and allowable costs incurred in
   accordance with the Job Corps contract and applicable laws and regulations.
Prepared by M.D. Oppenheim & Company, P.C., for the                                        3
U.S. Department of Labor—Office of Inspector General
Report Number: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs


2. Require that Cube Corporation use a current cost method to prepare the ETA-2110
   financial report.

3. Require that Cube Corporation take the necessary steps to ensure that adequate
   records are maintained in support of the amounts reported on the ETA-2110.

4. Ensure that all final contract financial reports and billings submitted by the Vinnell
   Corporation are accurate and complete and that all costs billed on the Public
   Voucher are supported by the ETA-2110 and the books of account.

5. Require that the Office of Job Corps provide training to center staff at the
   Homestead JCC on how to accurately prepare the monthly ETA-2110.

6. Require that the Homestead JCC implement controls to ensure all future
   submissions are properly reconciled to the Public Voucher and the books of account.

7. Require that ResCare, Inc., the contractor for the Treasure Island JCC, refund
   $38,235 paid in excess of Executive Level II compensation limits.

8. Require that each center has written policies and procedures for the preparation,
   documentation, recording, and approval of all journal entries made to the centers’
   books of account and that corrective actions are taken by the five JCCs to address
   the deficiencies reported.

Agency Response

The Assistant Secretary for Employment and Training responded that the report
recommendations will be very helpful in the ongoing effort to improve the Job Corps
program’s performance. The response provided the specific corrective action planned
for each recommendation.

OIG Conclusion

Overall we agree with ETA’s planned corrective action. The recommendations related
to Cube Corporation and ResCare, Inc., are unresolved pending the issuance of the
Contracting Officer’s final determination and the establishment of accounts receivables
for the collection of the amount of questioned costs that the Contracting Officer
disallows. The remaining recommendations will be resolved when ETA provides
milestone dates for implementing the planned corrective action.




4                                        Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs




                              Independent Auditors’ Report


Mr. Elliot P. Lewis
Assistant Inspector General
  for Audit
200 Constitution Avenue, Suite S-5512
Washington D.C. 20210

We conducted a performance audit of Job Corps Center (JCC) operating costs at 12
contractor-operated centers for the period October 2003 through March 2004. (See
Exhibit A for locations.) Center operating costs are reported to the Office of Job Corps
monthly on Form ETA-2110, Job Corps Center Financial Report, and include direct
center expenses such as center staff salaries, student food, student clothing, utilities,
medical, and dental expenses, as well as indirect costs such as contractor fees and
general and administrative expenses.

We conducted the audit to answer the following question:

   •   Are Job Corps contractors complying with laws, regulations, and Job
       Corps policies and procedures for center operating costs?

We conducted the audit in accordance with Government Auditing Standards for
performance audits. Our audit scope, methodology, and criteria are detailed in
Appendices B and C.

Our audit found that, overall, Job Corps contractors are complying with laws,
regulations, and Job Corps policies and procedures related to center operating costs.
However, we did identify three areas of noncompliance that related to specific
contractor operations and one area of noncompliance that was a cross-cutting issue
found at several centers, as noted in the attached findings and recommendations.




Prepared by M.D. Oppenheim & Company, P.C., for the                                         5
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs

Objective − Are Job Corps contractors complying with laws, regulations, and Job Corps
policies and procedures for center operating costs?

Finding 1 − Lack of an Adequate Accounting System at the North Texas Job Corps
Center Resulted in Questioned Costs of $786,977

The monthly ETA-2110 reports prepared by the North Texas JCC for the period October
2003 to March 2004 could not be reconciled to the books of account without substantial
efforts on the part of both the center and corporate staff. The contractor finally provided
the auditors with a reconciliation of the ETA-2110 for each month, which included
numerous off-ledger adjustments involving most line items.

These reconciling adjustments, totaling $786,977 for the 6-month period, were not
adequately documented or explained. As a result, the books of account did not
adequately support the center’s financial reports.

Section 638.808 of CFR 20, Center Financial Management and Reporting, states:

       The Job Corps Director shall establish procedures to ensure that each
       center operator and each subcontractor maintain a financial
       management system that will provide accurate, complete, and current
       disclosures of the financial results of Job Corps operations, and will
       provide sufficient data for effective evaluation of program activities.
       Fiscal accounts shall be maintained in a manner that ensures timely and
       accurate reporting as required by the Job Corps Director.

The North Texas JCC is operating under a mentor/protégé program that is designed to
provide for a smooth transition when center contractors are changed. This is
accomplished, in part, by both contractors jointly participating in running the center for a
period of time. The Cube Corporation (Cube) assumed responsibilities as the prime
contractor in August 2002, with Vinnell Corporation (Vinnell) continuing in its role as the
‘mentor’ contractor. Vinnell had prepared the ETA-2110 reports on a current monthly
expense basis when operating as the prime contractor. After the transition, Cube
assumed responsibility for preparing these monthly reports. However, we found that
Cube had prepared these reports on a cumulative cost basis rather than a current
monthly expense basis. Cube staff stated this change was made for two reasons:
(1) there were two sets of books involved, and (2) it was believed that the cumulative
cost method would reliably capture all costs.

Total costs reported on the ETA-2110s were $8,219,219 for the period October 2003
through March 2004. Of this amount, $4,114,398 was attributable to Vinnell. We were
able to reconcile the Vinnell costs to their general ledger without exception.

The balance of the ETA-2110 costs incurred by Cube totaled $4,104,821 for the same
period. Financial reports provided from Cube’s accounting system were at a summary
level for direct costs only. We were unable to obtain detailed account information below
6                                        Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs

the summary level in order to test the propriety of these amounts, and as a result were
only able to perform limited testing of staff payroll costs and certain other direct costs.
In addition, no general ledger linkage report or other reconciliation was available to
support the amounts reported on the ETA-2110s. As previously stated, it required
substantial efforts on the part of both the center and corporate staff to subsequently
prepare the reconciliations that included unsupported off-ledger adjustments totaling
$786,977.

Management acknowledged that the current reconciliation is cumbersome and difficult
for an outside party to audit. Accordingly, they immediately plan to prepare the ETA-
2110 using a simpler current cost format. They also plan to continue to prepare
cumulative cost reconciliations and reconcile them to the current cost format to ensure
the integrity of both methods.

As a result, we were unable to determine if the costs incurred by the Cube Corporation
were reasonable or allowable in accordance with the applicable regulations.

Recommendations 1, 2, 3

We recommend that the Assistant Secretary for Employment and Training require that
Cube Corporation:

1.   refund $786,977 because the documentation maintained by the contractor did not
     substantiate that these costs were reasonable and allowable costs incurred in
     accordance with the Job Corps contract and applicable laws and regulations;

2.   use a current cost method to prepare the ETA-2110 financial report; and

3.   take the necessary steps to ensure that adequate records are maintained in
     support of the amounts reported on the ETA-2110.

Agency’s Response

In response to our draft report, the Assistant Secretary for Employment and Training
stated that the Contracting Officer for the North Texas JCC will follow-up with Cube
regarding the $786,977 of unsubstantiated costs. The Contracting Officer will also
require Cube to use a current cost method to prepare the ETA-2110 financial reports
and will require Cube to take the necessary steps to ensure that adequate records are
maintained in support of those financial reports.

Auditor’s Conclusion
We agree with the planned corrective action. Recommendations remain unresolved
pending the issuance of the Contracting Officer’s final determination and the
establishment of an accounts receivable for the collection of the amount of questioned
costs that the Contracting Officer disallows.

Prepared by M.D. Oppenheim & Company, P.C., for the                                           7
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs




Finding 2 – Discrepancies Found In Homestead Job Corps Center’s ETA-2110
and Public Voucher

The ETA-2110, prepared by the Homestead JCC for the month of February 2004, does
not agree to the amount billed to the government on the SF-1034, Public Voucher for
Purchases and Services Other Than Personal, or to the books of account. After
submitting the March Public Voucher for payment, the center contractor, the Vinnell
Corporation, discovered the errors in the ETA-2110 and rescinded the Public Voucher in
order to address the problem.

Job Corps’ Policy and Requirements Handbook (PRH) Chapter 5: Financial
Management Appendix 502 states that the amounts reported as Vouchered
Reimbursable Expense on the ETA-2110 must agree with the month-end vouchers.

Auditors found an $82,255 discrepancy (see chart below) in the ETA-2110 and Public
Voucher that the Homestead JCC submitted for February 2004. (March submissions
were not available for review.)

                                                           Cumulative
                          Form Submitted
                                                         Costs Reported
                 SF-1034 (Public Voucher)                 $44,397,661
                 ETA-2110                                 $44,315,406
                 Discrepancy                                  $82,255

Auditors also found a difference of $16,686 for the 5-month period between the ETA-
2110 ($4,468,845) and the books of account ($4,452,159).

The ETA-2110 is used by Job Corps to analyze cost trends and cost effectiveness in
center operations. It is part of a financial management system designed to provide Job
Corps program managers with important information for managing resources and
efficient allocation of funds. If the ETA-2110 is unreliable, the Office of Job Corps loses
its ability to effectively monitor center operating costs, increasing the risk of non-
compliance with the contract and the center’s budget.

The contractor indicated that Homestead JCC staff prepared the ETA-2110, and the
corporate headquarters prepared the Public Voucher. To ensure that these monthly
submissions agreed, a corporate staff person was responsible for ensuring the accuracy
of these reports. However, when the Vinnell Corporation Job Corps contract was not
renewed and the individual left the company, this function was not reassigned.
Because reconciliation problems were found in more than one month, an extensive
reconciliation of costs may be required in order to ensure the accuracy of the ETA-2110
as of March 2004, the contract expiration date.


8                                        Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                        Performance Audit of Job Corps Center Operating Costs



Recommendations 4, 5, 6

We recommend that the Assistant Secretary for Employment and Training:

4.   ensure that all final contract financial reports and billings submitted by the Vinnell
     Corporation are accurate and complete and that all costs billed on the Public
     Voucher are supported by the ETA-2110 and the books of account;

5.   require that the Office of Job Corps provide training to center staff at the
     Homestead JCC on how to accurately prepare the monthly ETA-2110; and

6.   require that the Homestead JCC implement controls to ensure all future
     submissions are properly reconciled to the Public Voucher and the books of
     account.

Agency’s Response

In response to our draft report, the Assistant Secretary for Employment and Training
stated that the National Office will work with its contractor for contract close-out
activities to ensure that all final contract financial reports and billings submitted by the
Vinnell Corporation are accurate and complete and that all costs billed are supported by
the ETA-2110s and books of account. The Contracting Officer for the Homestead JCC
will require that they implement controls to ensure all future submissions are properly
reconciled to the Public Vouchers and books of account. In addition, the Office of Job
Corps is currently developing on-line and video training for all center operators to utilize
with staff on financial reporting and there will be special emphasis to make sure the
Homestead JCC takes part in the training.

Auditor’s Conclusion

We agree with the planned corrective action. The recommendations will be resolved
when ETA provides milestone dates for implementing the planned corrective action.

Finding 3 − Compensation in Excess of Statutory Limitations Resulted In
Questioned Costs of $38,235 at Treasure Island Job Corps Center

The Center Director at the Treasure Island JCC, an employee of ResCare, Inc. (the
center contractor), was compensated $218,741 for the year ended December 31, 2003,
as reported on Federal Form W-2, which is $64,041 over the maximum amount allowed
by Federal law. The Job Corps appropriation limits compensation to Job Corps
employees, including Center Directors, to Executive Level II. The Office of Personnel
Management set Executive Level II compensation at $154,700 for the year ended
December 31, 2003.


Prepared by M.D. Oppenheim & Company, P.C., for the                                           9
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs



The Department of Labor Appropriations Act, 2003 states:

       None of the funds appropriated in the title for the Job Corps shall be used
       to pay the compensation of an individual, either as direct costs or any
       proration as an indirect cost, at a rate in excess of Executive Level II.

In April 2004 (the month subsequent to our audit period) the contractor transferred
$25,806 of compensation costs from the JCC general ledger to the contractor’s general
operations costs. This transfer (a reduction of center costs) still left the total
compensation of the Center Director to be in excess of the maximum allowed by
$38,235.

Management at ResCare, Inc., stated that the reason compensation exceeded Federal
limitations was that they were having difficulty filling the Center Director’s position with a
qualified candidate at that compensation level.

Recommendation 7

7.   We recommend that the Assistant Secretary for Employment and Training
     require that ResCare, Inc., refund $38,235 paid in excess of Executive Level II
     compensation limits.

Agency’s Response

In response to our draft report, the Assistant Secretary for Employment and Training
stated that ResCare, Inc. will be required to refund the $38,235 paid to the Center
Director in excess of Executive Level II compensation limits.

Auditor’s Conclusion

We agree with the planned corrective action. Recommendations remain unresolved
pending the issuance of the Contracting Officer’s final determination and the
establishment of an accounts receivable for the collection of the amount of questioned
costs that the Contracting Officer disallows.

Finding 4 − Journal Entries Were Not Approved, Lacked Adequate Support, or Were
Incorrectly Recorded at Five Centers

At 5 of the 12 JCCs audited, we noted that journal entries were not properly approved,
lacked detailed documentation to support the propriety of the journal entries, or were
incorrectly recorded. Strong internal controls over the journal entry process are
important to ensure the accuracy of the financial records and to reduce the potential for
fraud due to the manipulation of accounting information.


10                                        Prepared by M.D. Oppenheim & Company, P.C., for the
                                          U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs




20 CFR 638.808, Center Financial Management and Reporting, states:

       The Job Corps Director shall establish procedures to ensure that each
       center operator and each subcontractor maintain a financial management
       system that will provide accurate, complete, and current disclosures of the
       financial results of Job Corps operations, and will provide sufficient data
       for effective evaluation of program activities. Fiscal accounts shall be
       maintained in a manner that ensures timely and accurate reporting as
       required by the Job Corps Director.

In addition, Statement on Auditing Standard No. 99, Consideration of Fraud in a
Financial Statement Audit, states that material misstatements of financial information
often involve the manipulation of the financial reporting process by (a) recording
inappropriate or unauthorized journal entries, or (b) making adjustments to amounts
through consolidating adjustments and reclassifications.

We noted that the controls over the process of documenting, recording, and approving
journal entries made to the centers’ books of account vary by contractor. Some
contractors provided strong oversight over the process, while others had no
independent review of the journal entries made. Specifically, we noted the following:

        Name of Job
                                        Explanation of Errors Noted
        Corps Center

        Atterbury           Three of the seven journal entries tested were either
                            not approved or approved by the same individual that
                            prepared the entry.

                            For two of the seven journal entries tested, the
                            documentation was not adequate and lacked
                            sufficient detail to support the propriety of the journal
                            entry amounts. These two entries involved the
                            accrual of accounts payable in the amount of
                            $420,745 and the posting of a government receipt of
                            $613,688.

        Homestead           All five journal entries examined were not approved.

        Iroquois            All five journal entries examined were approved by
                            the same person that prepared the entry. In addition,
                            the entries themselves did not have any descriptions
                            for the purpose of the entry.



Prepared by M.D. Oppenheim & Company, P.C., for the                                      11
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs

        Name of Job
                                        Explanation of Errors Noted
        Corps Center

        Laredo             One journal entry to record the accrual of staff
                           salaries and wages and associated benefits was not
                           correctly calculated, resulting in an over-accrual of
                           $33,502. This was the only journal entry tested at
                           Laredo JCC.

        Penobscot          While reconciling the center’s general ledger to the
                           ETA-2110, we found that the center had reclassified
                           certain expenses via a journal entry in March 2004
                           totaling $17,837, and these expenses were not
                           reported on the ETA-2110. At the time the entry was
                           posted, the fiscal personnel at the center established
                           a new general ledger account entitled “Temporary
                           Drivers” which was not properly linked to center’s
                           reporting module. This resulted in an underbilling by
                           the contractor.

Recommendation 8

8.   We recommend that the Assistant Secretary for Employment and Training require
     that each center has written policies and procedures for the preparation,
     documentation, recording, and approval of all journal entries made to the centers’
     books of account and that corrective actions are taken by the five JCCs to address
     the deficiencies reported.

Agency’s Response

In response to our draft report, the Assistant Secretary for Employment and Training
stated that the Regional Contracting Officers and Project Managers for the five JCCs
noted will require that the centers have written policies and procedures for the
preparation, documentation, recording, and approval of all journal entries made to the
centers’ books of account and that corrective actions are taken.

Auditor’s Conclusion

We agree with the planned corrective action. The recommendations will be resolved
when ETA provides milestone dates for implementing the planned corrective action.




August 19, 2004

12                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs




Exhibits




Prepared by M.D. Oppenheim & Company, P.C., for the                                      13
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs




                      THIS PAGE INTENTIONALLY LEFT BLANK




14                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs


                                                                                EXHIBIT A

Job Corps Centers Tested

   Job Corps Center                 Location                        Contractor
                            Albuquerque, New
  1. Albuquerque                                        Del-Jen, Inc.
                            Mexico
                                                        Management and Training
  2. Atterbury              Edinburgh, Indiana
                                                        Corporation
       Earle C.                                         Career Systems Development /
  3.                        Morganfield, Kentucky
       Clements                                         Del-Jen, Inc. (A)
                                                        Management and Training
  4. Gary                   San Marcos, Texas
                                                        Corporation

  5. Homestead              Homestead, Florida          Vinnell Corporation


  6. Iroquois               Medina, New York            Satellite Services


  7. Laredo                 Laredo, Texas               Vinnell Corporation

                                                        Cube Corporation /
  8. North Texas            McKinney, Texas
                                                        Vinnell Corporation (A)
                                                        Training and Development
  9. Penobscot              Bangor, Maine
                                                        Corporation
                                                        Management and Training
 10. Sierra Nevada          Reno, Nevada
                                                        Corporation

 11. Treasure Island        San Francisco, California   ResCare, Inc.

                                                        Education Training Resources /
 12. Turner                 Albany, Georgia             Career Systems Development
                                                        (A)


(A) Joint ventures as centers transition from one contractor to another.




Prepared by M.D. Oppenheim & Company, P.C., for the                                      15
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs




                      THIS PAGE INTENTIONALLY LEFT BLANK




16                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs




Appendices




Prepared by M.D. Oppenheim & Company, P.C., for the                                      17
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs




                       THIS PAGE INTENTIONALLY LEFT BLANK




18                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs

                                                                             APPENDIX A

Background

The Job Corps program was established under Title I, Subtitle C of the Workforce
Investment Act of 1998. The Office of Job Corps, a component of the Employment and
Training Administration of the U.S. Department of Labor (DOL), administers the
program.

The Job Corps program is a highly intensive, primarily residential training program for
severely disadvantaged youth ages 16 through 24. The program provides skills and
academic training, social education, and other support to over 70,000 participants at
approximately 120 centers.

Job Corps operates two types of facilities: (1) contractor-operated centers, and (2)
Civilian Conservation Centers. There are currently 90 contractor-operated centers run
by 28 for-profit corporations or non-profit organizations. There are 28 Civilian
Conservation Centers that are operated by either the U.S. Department of Agriculture’s
Forest Service or the U.S. Department of Interior’s National Park Service or Bureau of
Reclamation.

Job Corps is financed through annual congressional appropriations that are divided into
three components: (1) operating costs; (2) facility construction, rehabilitation, and
acquisition (CRA) expenses for existing facilities; and (3) capital facility funds for the
construction of newly approved centers. Operating costs are appropriated with 1-year
obligational availability, while capital facility and CRA expenses are appropriated with 3-
year obligational authority. Annual funding for operating expenses normally represents
roughly 90 percent of the total Job Corps appropriation, with CRA expenses normally
comprising 10 percent. Total Fiscal Year (FY) 2004 Job Corps funding is
$1,541,151,338 comprised of $1,411,113,612 for operations and $130,037,726 for CRA
expenses.

This audit is performed annually in conjunction with the audit of the DOL’s Consolidated
Financial Statements, and the results will be incorporated into the FY 2004 DOL’s
Performance and Accountability Report.




Prepared by M.D. Oppenheim & Company, P.C., for the                                       19
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs




                      THIS PAGE INTENTIONALLY LEFT BLANK




20                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs


                                                                             APPENDIX B

Scope and Methodology

We conducted a performance audit of 12 contractor-operated JCCs for the period
October 2003 through March 2004 in order to determine whether Job Corps contractor-
operated centers are complying with laws, regulations, and Job Corps policies and
procedures for the reporting of operating costs and the safeguarding of accountable
personal property.

A performance audit includes obtaining an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance
audit, we considered whether internal controls considered significant to the audit were
properly designed and placed in operation.

The scope of the audit consisted of evaluating center costs, as reported on Form ETA -
2110, Job Corps Center Financial Report, for compliance with applicable laws,
regulations, and Job Corps policies and procedures for the period October 2003 through
March 2004. Specific areas evaluated at each center included general financial
procedures, center staff payroll costs, non-personnel costs, and accountable non-
capitalized personal property.

We conducted fieldwork from May 2004 to August 2004 at the 12 JCCs listed in
Exhibit A.

Internal Controls

Our work on established internal controls included reviewing policies and procedures
and center contract documents, as well as interviewing key personnel. We gained an
understanding of the data flows in each audit area and documented a description of the
controls. Our testing of internal controls was focused only on the controls related to the
audit objective and was not intended to form an opinion on the adequacy of internal
controls overall, and we do not render such an opinion. Weaknesses noted in the
testing are discussed in Findings 1, 2, and 4 of this report.

Compliance with Laws and Regulations

We performed attribute testing at each JCC visited using both statistical and non-
statistical sampling. In order to determine compliance with the laws and regulations
cited in Appendix C of the report, we performed detailed tests of transactions that
included both analytical review and substantive tests of accounts.

Our testing related to compliance with laws and regulations was focused only on the
laws and regulations relevant to the audit objective and was not intended to form an

Prepared by M.D. Oppenheim & Company, P.C., for the                                      21
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs

opinion on compliance with laws and regulations as a whole, and we do not render such
an opinion. Instances of noncompliance are discussed in Findings 2 and 3.

Sampling

The total universe of costs for our audit was $439,663,591, which consisted of center
operating costs reported on the ETA-2110 for the 90 contractor-operated JCCs during
the period October 2003 through March 2004. The 12 JCCs we visited accounted for
$99,059,043 of the universe of costs for our audit. Costs excluded from our audit were
costs associated with: the 28 Civilian Conservation Centers; student pay and
allowances, capital facility cost for existing and new centers, and contractor costs for
student outreach, admissions and placement.

To test the reliability of the costs in our audit, we employed a two-tiered sampling
methodology. First, a statistical sample of 12 JCCs was randomly selected as part of a
5-year audit plan, developed in conjunction with the audit of DOL’s Consolidated
Financial Statements. Second, statistical samples of financial transactions were
selected for substantive and compliance testing. Sample items were selected randomly
from ETA-2110 line items for all months during the audit period. In addition, non-
statistical sampling techniques were utilized for certain phases of testing. We reviewed
supporting documentation such as time sheets, time cards, invoices, vouchers,
purchase orders, and receipts. We found no errors in the samples selected for our
center staff payroll and non-personnel expense substantive testing.

Auditing Standards

Our audit was conducted in accordance with Government Auditing Standards for
performance audits issued by the Comptroller General of the United States. Those
standards require that in planning and performing a performance audit, we use an
objective and systematic examination of evidence for the purpose of providing an
independent assessment of the performance of contractor-operated JCCs.

An audit made in accordance with these standards provides reasonable assurance that
its objectives have been achieved; but it does not guarantee the discovery of illegal
acts, abuse, or all internal control weaknesses. We believe our audit provides a
reasonable basis for the auditors’ assessment and conclusions.

The conclusions provided in this report are the result of our performance audit for the
period October 2003 through March 2004. Changes in management of the program,
including changes in controls or laws, regulations, and other compliance requirements
could result in performance that would be different from the performance during that
period. This report should not be used to evaluate performance results of future
periods.

This performance report is a matter of public record.


22                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs

                                                                             APPENDIX C

Criteria

We used the following criteria to perform this audit:

   •   Center Contracts

   •   Center Operating Procedures

   •   20 CFR 638.800 Program Management

   •   20 CFR 638.801 Staff Training

   •   20 CFR 638.808 Center Financial Management and Reporting

   •   20 CFR 638.810 Reporting Requirements

   •   PRH – Chapter 5 Management

   •   PRH – Chapter 5, Appendix 502, Center Financial Management

   •   48 CFR Chapter 1 Part 31 Cost Principles for Commercial Organizations

   •   48 CFR Chapter 1 Parts 1-18 Federal Acquisitions Regulations

   •   ETA Property Management Handbook No. 359

   •   Statement on Auditing Standard No. 99




Prepared by M.D. Oppenheim & Company, P.C., for the                                      23
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs




                        THIS PAGE INTENTIONALLY LEFT BLANK




24                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs

                                                                             APPENDIX D

Acronyms and Abbreviations


                   CFR          – Code of Federal Regulations

                   CRA          – Construction, Rehabilitation, and Acquisitions

                   CUBE         – Cube Corporation

                   DOL          – U.S. Department of Labor

                   ETA          – Employment and Training Administration

                   FY           – Fiscal Year

                   JCC          – Job Corps Center

                   PRH          – Policy and Requirements Handbook

                   VINNELL      – Vinnell Corporation




Prepared by M.D. Oppenheim & Company, P.C., for the                                      25
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs




                      THIS PAGE INTENTIONALLY LEFT BLANK




26                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
                                       Performance Audit of Job Corps Center Operating Costs




Agency Response to Draft Report




Prepared by M.D. Oppenheim & Company, P.C., for the                                      27
U.S. Department of Labor—Office of Inspector General
Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs




                      THIS PAGE INTENTIONALLY LEFT BLANK




28                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs


                                                        APPENDIX E




U.S. Department of Labor—Office of Inspector General            29
Draft Report No: 03-05-004-03-370
Performance Audit of Job Corps Center Operating Costs




30                                       Prepared by M.D. Oppenheim & Company, P.C., for the
                                         U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 03-05-004-03-370
